T>

mV _

•*

No.

-17*

Supreme Court, U.S.
FILED

JUL 3 0 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES
MARILYN TILLMAN-CONERLY - PETITIONER
V.
UNTIED STATES OFFICE OF PERSONNEL MANAGEMENT,
AND LAVERNE WATSON- RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO

THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

MARILYN TILLMAN-CONERLY

1501 AMAZON AVENUE

SACRAMENTO, CALIFORNIA 95835-1929

(916) 595-2210 or (916) 743-7948

RECEIVED
AUG - 5 2021

v3

QUESTION(S) PRESENTED

1.) Whether the Ninth Circuit Court abused its discretion by finding and
deciding that the District Court did not abuse its discretion by dismissing
Plaintiff s/Appellant’s/Petitioner’s/Tillman-Conerly’s for failure to effect
timely service of summons and complaint on Defendants/Appellees/
Respondents when Petitioner’s Process Server followed the necessary
alternative service procedure instructed by Defendants’/Appellees’/
Respondents’ office of general counsel gave because of the Covid 19 pandemic
(Corona Virus) which caused Defendants’/AppeUees’/Respondents’ agency to
be closed without a date that they would be reopened?
2.) Whether Petitioner’s Process Server did-effect timely serve of summons and
complaint on Defendants/Appellees/Respondents when the Process Server
followed the necessary alternative service procedure instructed by
Defendants’/Appellee’s/Respondent’s office of general counsel gave because
of the uncontrollable covid 19 pandemic (Corona Virus) which caused
defendants’ agency to be closed without a date that they would be reopened?
5.) Whether Plaintiff/Appellant/Petitioner did show good cause for failure to
serve Plaintiff/Appellee/Respondent by Plaintiffs/Appellant’s/Petitioner’s
Process Server not following the previous usual procedure, Plaintiff’s/
Appellee’s/Petitioner’s Process Server did-effect timely serve of summons and
i

complaint on defendants when the Process Server followed the necessary
alternative service procedure instructed by defendants* office of general
counsel gave because of the uncontrollable eovid 19 pandemic (Corona Virus)
which caused defendants’ agency to be closed without a date they would be
reopened?
4.) Whether the Ninth Circuit Court abused its discretion by finding and
deciding that the District Court did abuse its discretion by rejecting
PlaintifTs/Appellant’s/Tillman-Conerly’s contention that the District Court
was biased against her whereby that District Court found as being meritless,
and the District was well aware of the affect that the Corona Virus had on the
service process of the Judicial System?

ii

LIST OF PARTIES
[X] All parties appear in the caption of the case on the cover page.
I I All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
TABLE OF CONTENTS
OPINIONS BELOW.

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3
4-7

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

7

CONCLUSION

7

INDEX TO APPENDICES
APPENDIX A United States Ninth Circuit Court Of Appeal Opinion
APPENDIX B United States Eastern District Court Opinion
APPENDIX C Appellant’s/Petitioner’s Informal Opening Brief

iii

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES

3

KNICK v. Scott, Township ofPa.

STATUTES AND RULES
14th Amendment of the U.S. Constitution

3-5

5th Amendment of the U.S. Constitution

3

42 U.S.C. Section 1983

3

3-5

5 C.F.R. Section 8741
OTHER

iv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
OPINIONS BELOW
[ X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix______ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

03 For cases from federal courts :
The date on which the United States Court of Appeals decided my case
July 2.2021
was
[X ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date:___________
order denying rehearing appears at Appendix
[ 3 An extension of time to file the petition for a writ of certiorari was granted
(date)
to and including____
(date) on
in Application No. A.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ 3 For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______.
[ 3 A timely petition for rehearing was thereafter denied on the following date:
________________________, and a copy of the order denying rehearing
appears at Appendix
[ 3 An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date) in
Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

KNICK v. Scott, Township ofPa.

STATUTES AND RULES
14th Amendment of the U.S. Constitution
5th Amendment of the U.S. Constitution
42 U.S.C. Section 1983
5 C.F.R. Section 8741

3.

STATEMENT OF THE CASE

I received a letter on January 31,2019, that was dated December 10,2018 from Laveme Watson
OPM Legal Administrative Specialist (SEE ENCLOSURE A). The erroneous letter incorrectly
informed me that I received a refund of my Civil Service Retirement Deduction for a period of service
that ended before March 1,1991. It stated that I must redeposit $25,955.00 to cover the service. It
further stated that if did not redeposit $25,955.00 my monthly annuity will decrease from $3,247.00
down to $3,132.00 each month. I disagree that I received die refund. I contacted Laverne Watson. I
called her and left A recorded detailed message of my disagreement and asked that she return my call.
Lavem Watson returned my call on February 13,2019 about 11:50am. I informed her that I disagree with
her accusation and asked her to send me a copy of proof that I received the alleged refund. She said that
she would mail the proof to me and that It will take about 3 days for her to get the case.
On February 25,2019 and February 26,2029 about 8:13am I called Laverne Watson again and her
recording came on. I left a message asking her to send me documentation proving that I actually
received the alleged refund.
On February 27,2019 about 6:30am my time, I called her and left a message on her phone recorder,
informing her that the documents that she sent did not show proof that I actually received the alleged
refund. On February 27, 2019 Laveme Watson returned my phone call. I then informed her that she did
not provide the proof that I requested. It was proof that I requested a refund (SEE ENCLOSURES B,
C, D, and E).
On April 2,2020 at 11:31 a.m. Appellant spoke with OPM employee Mary Joe about the status of my
correcting my backpay and monthly retirement annuity. Mary Joe responded “I will do an escalation to
have a Supervisor call you back.”
On May 8,3020 Appellant filed this suit within the United States Eastern District Court of Sacramento

4.

California, against OPM and Laverne Watson, for Civil Rights Violations under the United States
Constitution 14th Amendment, 5 C.F.R. 8741 and due Appellant’s not having the funds to pay for her
Court Filing Fees, her father stepped up-to the counter and gave the payment to the Court Clerk.
On July 13,2020 Appellant moved the Court to stay, service time due to Defendant’s changes because
of the Corona affecting service at usual place.
On July 15,2020 Magistrate Judge K.J.N. denied Motion to Stay, but instead issued Order that
Plaintiff' Appellant have until 8/31/2020 to serve Defendants.
On July 22, 2020 Appellant’s had Defendants Professional Process Server went to the Place to serve
both defendants; however, due to the Corona Virus, Defendants were to be served in an alternative
manner (see Exhibit D).
On August 18,2020 Appellant’s Professional Server served both Defendants in the manner provided
by Defendants.
On August 18 or 19,2020 District Court Clerk Hung, H. indicated by PACER feat Plaintiff’s
Summons upon “USA” defendant “Summons Returned Executed as to USA” “[Wed 8/19 8:59 AM and
“SUMMONS RETURNED EXECUTED by Marilyn Tillman-Conerly. United States Office of Personnel
Management served on 8/11/2020; Laverne Watson served on 8/11/2020. (Huang, H).”
On October 7,2020 Magistrate Judge K.J.N. signed an “ORDER TO SHOW CAUSE” which alleged
feat Plaintiff/Appellant failed to serve defendants “pursuant to FRCP 4.”
On October 13,2020 Plaintiff/Appellant Declined Jurisdiction of United States Magistrate Judge
Kendall J. Newman.
On October 13, 2020 Plaintiff/Appellant filed a Motion for Default Judgment in fee District Court.
On October 22,2020 Plaintiff Appellant filed in fee District Court a Notice of Change of Phone.
On October 21,2020 PlaintiffAppellant filed in fee District Court Proof of Service Copies

5.

(Corrected Copy) of PLAINTIFF RESUBMIT PROOF OF SERVICE AS A RESPONSE FOR ORDER
TO SHOW CAUSE.”
On November 13,2020 Magistrate Judge Kendall J. Newman signed his “FINDINGS AND
RECOMMENDATIONS TO DISMISS AND TO DENY MOTION FOR DEFAULT JUDGMENT.”
On December 02,2020 Plaintiff/Appellant filed in die District Court Plaintiffs’ OBJECTIONS TO
MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATIONS”
On December 17,2020 District Court Judge Troy L. Nunley Adopting Magistrate Judge Kendall J.
Newman’s Findings and Recommendations.
On December 18,2020 Judgment of District Court Judge Troy L. Nunley signed on 12/17/2020.
On December 23,2020 PlaintifT/Appellant Filed a NOTICE OF APPEAL to the United States of
Court ofAppeals for the Ninth Circuit Court.
“On December 28,2020 Appeal Processed to USCA Mon 12/28/12:33 PM.”
On “Monday, January 04,2021... USAC CASE NUMBER 20-17502 for 16 Notice of Appeal
filed by Marilyn Tillman-Conerly. (Coll, A).”
On January 05,2021 Appellants’ Fees was received by USCA for the amount of “$505 for this
Case at Hand.
On July 2,2021, United States Court Of Appeals Form The Ninth Circuit Court OfAppeals
held that the “district court did not abuse its discretion by dismissing Tillman-Conerly’s action
because Tillman-Conerly failed to effect timely and proper service of the summons and complaint
on defendants and did not show good cause for failure, despite being given notice and an
opportunity to do so,” and “We reject as meritless Titlman-Conerly’s contention that the district
court was biased against hen AFFIRMED.”
Petitioner’s (Appendix C) ((Appellant’s Informal Opening Brief with its Exhibits A, B, C, D,
E, and F)) are to be incorporated herein this Petition.

6.

NOW COMES PETITIONER Marilyn Tillman-Conerlv to respectfully petition this Higher
Court in dispute of the lower courts’ findings, holdings, and decisions.
REASONS FOR GRANTING THE PETITION
Petitioner Marilyn Tillman Conerly do respectfully petition this United States Supreme Court
for resolution of my long-sought settlement of deprivation of my income due to me for my thirty-six
(36) years of Postal Service to reach retirement status. I only want what is honestly and lawfully
right that I receive. After my diligent and long seeking that-which I do desperately need to retire
peacefully, and question why me?, I resort to legal means to attempt to right the wrongs and haim
already done to me. Now, considering the proof and explanations that I have provided throughout
this journey, I pray that we can put this hardship and struggle to rest. I, Petitioner, seek this level for
judicial redress with respect, honesty, and humbleness, at the same time I am considering the rulings
that has come forth that involved critical decisions made under the umbrella of the United States of
America Constitution. I do keep in mind the Godly Gift of being a Citizen of this Great Country,
Therefore, I do not take for granite the work of the officers and Staff involved. Thank You!

CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully submitted,
Marilyn Tillman-Conerly
Date:

Jnlv 30,2021

7.

